United Federal Credit Union

TRUTH-IN-LENDING DISCLOSURE
STATEMENT - ACCOUNT OPENING DISCLOSURES

2807 S. State Street
St. Joseph, MI 49085
(888) 982-1400
BORROWER 1 NAME

ACCOUNT NUMBER

BORROWER 2 NAME

DATE

The following disclosure represents important details concerning your credit card. This statement is incorporated into and
becomes a part of your Credit Card Agreement. We reserve the right to periodically review your credit standing and to
increase any rate on your new balances, in accordance with applicable law. The Credit Card you have received is
indicated by the checkbox below.
INTEREST RATES and INTEREST CHARGES:
U First
Annual Percentage Rate
(APR) for Purchases

0.00-2.99% Introductory APR for __6__
months of account opening. After that, your
Standard APR will be

7.74-17.74%.

U Rewards

10.74-18.00%.

This APR

will vary with the market based on the
Prime Rate*.

This APR will vary with

the market based on the Prime Rate*.

APR for Balance Transfers** 0.00-2.99% Introductory APR for __6__ months of

account opening. After that, your Standard APR will
be 7.74-17.74%. This APR will vary with the
market based on the Prime Rate*.

APR for Cash Advances
Paying Interest

10.74-18.00%.
This APR
will vary with the market based on
the Prime Rate*.

10.74-18.00%. This APR will vary
with
the market based on the Prime
with the market based on the Prime
Rate*.
Rate*.
Your due date is at least 21 days after we mail your billing statement. We will not charge you interest on
purchases if you pay your entire new purchase balance by the due date each month. For Cash
Advances and Balance Transfers, we will begin charging interest on the transaction date.
7.74-17.74%. The APR will vary

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain
your Account
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None
None
None
0% of each transaction in U.S. dollars if the transaction involves a currency conversion
0% of each transaction in U.S. dollars if the transaction does not involve a currency conversion
If your payment is made 5 or more days after your statement cycle closes, up to $28 for the
first occurrence and up to $39 each if 2 or more occurrences occur within 6 months.
None
Up to $34 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See your
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.
Loss of Introductory Rate: We may end your Introductory Rate and apply the standard APR disclosed above if you make a
late payment.
SEE NEXT PAGE for more important information about this account
9010 LASER VELOCITY FI18735 Rev 7-2017

page 1 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

OTHER IMPORTANT DISCLOSURES:
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS
AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS
AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR
FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account that would lose special tax treatment under
state or federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also secure your obligations under this Agreement, unless
that other collateral is a building located or to be located in a special flood hazard area as defined by applicable flood
insurance laws; household goods; residential real property; or a dwelling.
*Variable Rates: The Annual Percentage Rate will be determined monthly by adding a margin to an Index value. For U First, the margin is
between 4.49-14.49 percentage points. For U Rewards, the margin is between 7.49-14.75 percentage points. The Index value is the Prime
Interest Rate published in the Wall Street Journal “money rates” table on the last business day of the month (or next business day if the last day
falls on a weekend or holiday). A new rate will not apply to your account until the first day of your next billing cycle that begins after a change
date. The Annual Percentage Rate will never be more than 18.00%. Any increase will take the form of more payments of the same amount.
Daily Periodic Rates: U First - Purchases Introductory Rate: 0.00000%-0.00819%; Purchases Rate: 0.02121%-0.04860%; Balance Transfers
Introductory Rate: 0.00000%-0.00819%; Balance Transfers Rate: 0.02121%-0.04860%; Cash Advances: 0.02121%-0.04860%
Daily Periodic Rates: U Rewards – Purchases Rate: 0.02942-0.04932%; Balance Transfers Rate: 0.02942%-0.04932%; Cash Advances:
0.02942%-0.04932%
**Balance Transfers. You may make transfers in any amount as long as the total amount of your balance transfer is less than your available
credit limit. You should not transfer any disputed charge amounts because you may lose your dispute rights. You may not transfer balances
from other cards or accounts issued by United Federal Credit Union.
eff 3/17/2020

page 2 of 2

